<html>
<title> - INTERNATIONAL TRAFFICKING IN PERSONS: TAKING ACTION TO ELIMINATE MODERN DAY SLAVERY HEARING BEFORE THE COMMITTEE ON FOREIGN AFFAIRS HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 

                     INTERNATIONAL TRAFFICKING IN PERSONS: 
                      TAKING ACTION TO ELIMINATE MODERN DAY 
                                       SLAVERY 




                                        HEARING 


                                      BEFORE THE 

                             COMMITTEE ON FOREIGN AFFAIRS 
                                HOUSE OF REPRESENTATIVES 


                               ONE HUNDRED TENTH CONGRESS 

                                          
                                      FIRST SESSION 
                                          
                                         -------

                                      OCTOBER 18, 2007 

                                          -------
                                    Serial No. 110-119 

                                          -------

              Printed for the use of the Committee on Foreign Affairs 



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 

                                          ----

                             U.S. GOVERNMENT PRINTING OFFICE 

38-332PDF                            WASHINGTON : 2007 


  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,                     
                            Washington, DC 20402-0001 


[TEXT NOT AVAILABLE REFER TO PDF]


</pre></body></html>
